                                                                      Office               Hotline

  Office of Inspector General                                         202.692.2900
                                                                      peacecorps.gov/OIG
                                                                      OIG Reports
                                                                                           202.692.2915 ‫ ׀‬800.233.5874
                                                                                           Online Reporting Tool
                                                                                           OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          September 30, 2014

Subject:       Lessons Learned: New Country Entries Report

Transmitted for your information is our report Lessons Learned: New Country Entries.

This report synthesizes and highlights lessons learned from 33 Office of Inspector General (OIG)
reports issued from 1990 to 2013 on newly opened or re-opened posts. Our objective was to
provide insight and guidance to help strengthen the agency’s ability to effectively open or re-
open posts. We announced our intention to produce this report in our FY 2014 annual plan as
part of our strategic plan goal to utilize OIG report findings, recommendations, and trends as a
tool to support and effect change in management practices.

We are not issuing recommendations in the report, but we conclude with a section that
summarizes important best practices and lessons learned. There is not a requirement that a
written response to the report be transmitted.

Should anyone wish to comment on the quality or usefulness of this report to help us improve
our products, they may address comments or questions to Assistant Inspector General for
Evaluations Jim O’Keefe at jokeefe@peacecorps.gov or 202.692.2904.

cc:
        Jacklyn Dao, White House Liaison
        Bill Rubin, General Counsel
        Laura Chambers, Chief of Staff
        Carlos Torres, Associate Director, Global Operations (OGO)
        Helen Lowman, Associate Director, Volunteer Recruitment and Selection
        Paul Jung, Associate Director, Health Services
        Daryl Sink, Acting Associate Director, Safety and Security
        Dick Day, Regional Director, Africa (AF) Operations
        Keri Lowry, Regional Director, Europe, Mediterranean, and Asia (EMA) Operations
        Nina Favor, Acting Regional Director, Inter-America and Pacific (IAP) Operations
        Joseph Hepp, Chief Financial Officer
        Dorine Andrews, Chief Information Officer
        Carl Swartz, Chief of Operations, AF
        Vince Groh, Chief of Operations, AF
        Krista Rigalo, Expert-Special Advisor, Programming, Training, and Evaluation, AF
Alyssa Karp, Chief Administrative Officer, AF
Kristin Besch, Chief of Operations, EMA
Betsy Vegso, Chief of Programming and Training, EMA
Nancy Gehron, Chief Administrative Officer, EMA
Hill Denham, Expert, EMA
Brian Riley, Chief of Operations, South America & the Pacific, IAP
Emily Untermeyer, Chief of Operations, Central America & the Caribbean, IAP
Amy Johnson, Chief of Programming and Training, IAP
Peter Redmond, Deputy Associate Director, OGO
Diane Schmidt, Expert, OGO
Sonia Stines Derenoncourt, Director, Office of Programming and Training Support
Marie McLeod, Director, Global Health and HIV
Sarah Morgenthau, Director, Peace Corps Response
Patricia Barkle, Deputy Chief Compliance Officer
  Peace Corps
  Office of Inspector General




New Country Entries: Lessons Learned
                             September 2014
                                     EXECUTIVE SUMMARY
BACKGROUND
Establishing a new Peace Corps country program is one of most important and challenging
aspects of agency operations. Successful programs are built on solid, mutually respectful
partnerships with host governments, national and local agencies, and the communities where
Volunteers serve. Success is also dependent on how well Peace Corps staff develops projects,
identifies work sites, delivers training, and supports Volunteers during service.

OBJECTIVE
This report synthesizes and highlights lessons learned from Office of Inspector General (OIG)
reports in order to provide insight and guidance that can strengthen the agency’s ability to
effectively open or re-open posts. 1 We reviewed 33 OIG reports issued from 1990 to 2013 on
newly opened or re-opened posts, including evaluations, inspections, and special reviews (See
Appendix C for a list of all OIG reports reviewed). The purpose of the study was to answer the
following questions:

    •    What strategies and best practices have proven effective in opening new posts? 2
    •    What common challenges are encountered in opening new posts?
    •    Has the agency adequately addressed the challenges of opening posts?

While we are not issuing recommendations, we conclude with a section that summarizes
important best practices and lessons learned to facilitate and support successfully opening or re-
opening a Peace Corps post.

RESULTS IN BRIEF
The agency has a New Country Entry Guide (hereafter referred to as the NCE Guide) that
contains appropriate timelines and instructions for opening a post. However, we identified
recurring issues that proved problematic for newly opened posts when timelines, resources, or
new country entry assessment recommendations were not sufficiently considered and planned.
We also identified a number of successful strategies and best practices that supported success.
For instance:

     •   Preparation Time. Our review identified findings related to preparation time in nine of
         the 33 reports we examined.
            o Staff required sufficient time and resources to carry out the activities outlined in
                the NCE Guide before Volunteers arrive for training.
            o Opening timeframes shortened or accelerated by the presidential administration or
                the Department of State led to rushed and incomplete start-up, impacted
                relationships with host partners, and negatively affected training and Volunteer
                effectiveness.

1
 For the purposes of this review, posts were considered new until five years from their opening date.
2
 Throughout this report “new posts” refers both to posts that are new entries and re-entries of closed posts unless
otherwise specified.

New Country Entries: Lessons Learned                                                                                  i
           o   Temporary and targeted support from headquarters, regional staff, and the U.S.
               Embassy proved crucial to successfully carrying out initial start-up activities.

   •   New Country Entry Assessment Team Recommendations. The agency’s close
       adherence to these recommendations mitigated early problems or setbacks.

   •   Piggy-backing. Using staff resources at neighboring posts to manage new post
       operations (called “piggy-backing”), or relying too heavily on contractors or the U.S.
       Embassy were ineffective strategies and often exacerbated challenges in post start-up.

   •   Initial Programming. Many new posts experienced programming and training success
       by limiting the complexity of programming, often to just one project.

   •   Succession Planning. Attention to staff transition was especially critical during a post’s
       formative years so that hard won gains are not undone by staffing gaps in key leadership
       positions.

Incorporating lessons learned, best practices, and successful strategies from the agency’s broad
experience into its current new country entry process is one of the best ways avoid pitfalls of the
past and position the agency for success in this very important endeavor. Capturing lessons from
the past is particularly important given the term-limited appointments of our United States Direct
Hire (USDH) headquarters and field staff and challenges tapping into and applying institutional
memory. We hope the information in this report contributes to the agency’s new country entry
process and the success of Peace Corps staff and Volunteers who lead this effort.




New Country Entries: Lessons Learned                                                                ii
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY .....................................................................................................................i

BACKGROUND ..................................................................................................................................1

RESULTS OF REVIEW .......................................................................................................................3

          NEW C OUNTRY E NTRY ASSESSM ENTS .................................................................................................................. 3

          P LANNING, STAFFING, A ND R ESOURCES ............................................................................................................... 4

          HOST COUNTRY A ND U.S. EM BASSY S UPPORT AND C OOPERATION .................................................................. 12

          P ROGRAMMING AND TRAINING ............................................................................................................................ 14

LIST OF L ESSONS LEARNED ..........................................................................................................16

          NEW C OUNTRY E NTRY ASSESSM ENTS ................................................................................................................ 16

          P LANNING, STAFFING, A ND R ESOURCES ............................................................................................................. 16

          HOST COUNTRY A ND U.S. EM BASSY S UPPORT AND C OOPERATION .................................................................. 16

          EMBASSY SUPPORT .............................................................................................................................................. 16

          P ROGRAMMING AND TRAINING ........................................................................................................................... 16


APPENDIX A: OBJECTIVE, S COPE, AND METHODOLOGY.............................................................17

APPENDIX B: LIST OF ACRONYMS ................................................................................................19

APPENDIX C: OIG REPORTS REVIEWED ......................................................................................20

APPENDIX D: ALL VOLUNTEER SURVEY ANALYSIS .....................................................................22

APPENDIX E: REPORT COMPLETION AND OIG CONTACT ..........................................................23
                                             B ACKGROUND
On March 1, 1961 President John F. Kennedy issued an executive order that created the Peace
Corps. By 1962, the Peace Corps had launched programs in 28 countries and by June of that year
2,816 Volunteers were serving in the field. Since its founding 53 years ago, over 215,000
Volunteers have served in 139 countries.

Volunteers contribute to the Peace Corps mission of world peace and friendship by working
toward three goals:

         1. To help the people of interested countries in meeting their need for trained men and
            women.
         2. To help promote a better understanding of Americans on the part of the peoples served.
         3. To help promote a better understanding of other peoples on the part of Americans.

The Peace Corps establishes its programs in countries where it has been invited by the host
government. To guide the entry or re-entry to a country that has closed or suspended activities,
the agency has developed an NCE Guide. 3 Before the Director decides whether or not to open a
program in response to an invitation, the agency’s practice is to conduct an assessment of the
social, political, and security conditions in the country. According to the agency’s NCE Guide,
the purpose of new country and re-entry assessment is to help the Director determine the
feasibility of opening or re-opening a program. An NCE assessment team, assembled from
current and former Peace Corps staff members, typically spends about two weeks in the country
to conduct the study.

The NCE Guide provides instructions, checklists, and timelines for administration, logistics,
financial systems, programming and training, and Volunteer support that headquarters, regional,
and newly hired staff will undertake to stand up a new post. Staff are expected to adapt the
suggested steps to the conditions in each country. The following graph illustrates the key steps
outlined in the agency’s NCE Guide for opening or re-opening a post.




3
 The agency updated the NCE in August 2013. The format and content of the NCE handbook was developed and
put in use in 1992 and has been periodically updated to reflect current conditions, policies and procedures. Peace
Corps Manual section 340, “Opening a Post” provides an outline for the process to open or re-open a post.

New Country Entries: Lessons Learned                                                                                 1
                        Figure 1. Key Agency Steps in Opening a Post




New Country Entries: Lessons Learned                                   2
                                         RESULTS OF REVIEW
NEW COUNTRY ENTRY ASSESSMENTS

Newly opened posts benefitted from assessment team recommendations, and experienced
setbacks when recommendations were not followed.

A number of OIG reports drew attention to new country entry assessment team recommendations
that contributed to posts’ start-up success. For example, PC/Cambodia (2006) developed
programming in project areas identified by the assessment team which closely aligned with the
host country development priorities and fostered host-country buy-in. 4 District officials played
active roles in Volunteer site identification and participated in trainings and conferences.
National leaders praised Peace Corps contributions to the country. Volunteers in Cambodia
reported high levels of job satisfaction. Our report on PC/Colombia (2010) concluded that
successful assessment team and host government collaboration helped to identify programming
opportunities that met host country priorities and led to a solid programming foundation.

Conversely, we found that some setbacks at newly opened posts could have been avoided had the
agency followed assessment team recommendations. In re-opening PC/Chad (1987), managers
did not follow the assessment team’s recommendation to allow 12 to 15 months of preparation
time prior to PST for the first group of Volunteers. Instead, staff arrived four months before the
start of PST. As a result, Volunteers were not adequately prepared for service, struggled with
their assignments, and many elected to end their service early. Additionally, PC/Chad staff had
difficulty securing staff housing, hiring local staff, and managing a range of administrative and
resource issues.

The assessment team for PC/Ethiopia (2010) recommended that staff establish an emergency
communication method, yet an OIG evaluation four years after the post’s opening found no such
emergency communication method in place, a significant safety and security weakness. The
assessment team for PC/Liberia recommended that the country director (CD) have a strong
programming and training background to compensate for the lack of a full-time director of
programming and training (DPT) at the post. Neither of the first two CDs had sufficient
background to mentor and guide local staff, which negatively affected the post’s programming
and training.

It was unclear from our review why some assessment team recommendations were not followed.

    Lesson Learned:

    While there are no agency requirements or procedures to ensure that a new post implements
    assessment team recommendations, our review suggests that closer adherence to
    recommendations would mitigate early challenges or setbacks.


4
    Dates in parentheses indicate the date of post entry or re-entry. Refer to Appendix C for year OIG report issued.

New Country Entries: Lessons Learned                                                                                    3
Poorly executed new country entry assessments created challenges.

The NCE Guide establishes guidance for assembling an assessment team. Members should be
drawn from currently serving or former Peace Corps staff members with expertise in
management, administration and logistics, programming and training, safety and security, and
medical services. The NCE Guide provides a structured outline for conducting each section of
the team’s study.

We found that some new posts were at a disadvantage because the NCE assessments were poorly
executed. The assessment of Peace Corps’ feasibility to enter Cape Verde (1988) was rushed and
did not sufficiently take into account key political, logistical, and economic factors;
programming was poorly planned as a result. Similarly, the evaluation of PC/Guinea Bissau
(1988) found that the assessment was conducted under a tight schedule and underestimated
logistical and programmatic challenges, and the post was not properly prepared and equipped to
face those challenges.

Three other NCE assessments, those of Sao Tome e Principe (1990), Romania (1991), and South
Africa (1997) failed to adequately inform the agency of significant challenges in areas such as
logistics, materials, staffing, programming, administration, and site development that led to
significant challenges in these areas during the start-up period. The assessment of
PC/Czechoslovakia (1991) did not review environmental health concerns and Volunteers
reported adverse health effects to OIG after being placed in polluted sites.

 Lesson Learned:

 Assessment team members should possess appropriate skills and experience and be
 provided sufficient time and resources to carry out a thorough, detailed assessment with
 recommendations to guide staff entrusted with opening the post.



PLANNING, STAFFING, AND RESOURCES

Adequate preparation time is essential for a successful post opening.

The NCE Guide includes guidance and a timeframe for when staff should conduct particular
start-up activities prior to the arrival of the first group of trainees. The guide also provides a
detailed staffing-up chart with target dates for hiring and training host country staff.

Our review determined that new posts faced tremendous challenges when staff was not provided
sufficient time to prepare for the arrival of the first training group. The period of time provided to
staff for start-up activities was inconsistent. Our review identified findings related to preparation
time in nine of the 33 reports we examined. The 2001 report of PC/Bangladesh (1998) attributed
the post’s success in hiring personnel, establishing operations, and developing site placements
and training programs to staff being on site well in advance of the first training group.


New Country Entries: Lessons Learned                                                                 4
Eight reports in our review determined that staff was not provided sufficient preparation time.
The staff for PC/Romania (1991) was only provided two to three months to prepare for the first
training group’s arrival. Several other posts, including the Baltics (1992), Liberia (2008), and
Indonesia (2012), had their opening timeframes shortened or accelerated by the presidential
administration and the Department of State. Inadequate and accelerated time frames led to rushed
start-up activities at these posts, giving rise to a host of problems, including:

    •    Weak relationships and support agreements with host country partners or the U.S.
         Embassy.
    •    Misalignment of programming with host country needs.
    •    Hastily completed project planning, resulting in vaguely defined Volunteer assignments.
    •    Disorganized or inadequate Volunteer training.
    •    Overwhelmed and overworked staff.
    •    Poorly developed or supported sites, resulting in low Volunteer morale and high early
         termination rates.
    •    Administrative challenges in the areas of banking, communications, office space,
         contracting, and establishing an imprest fund. 5
    •    Uneven quality in staff hiring or training.
    •    Rushed Volunteer recruitment activities that diverted top quality Volunteers who had
         been nominated to other countries, weakening the quality of those training classes.

The rush to open these posts compounded the difficulty of start-up activities that are challenging
in the best of circumstances. The inherent difficulty of opening a post can be inferred from
agency Annual Volunteer Survey (AVS) data. The AVS is distributed to all active Volunteers
and provides them the opportunity to confidentially share their views and experiences. We
reviewed AVS data from 2002 through 2013 and found that Volunteers at new posts felt their
site was not as well prepared for their arrival (see Figure 2). Survey data also showed that
Volunteer satisfaction with staff support at new posts lagged behind global satisfaction in key
areas (see Figure 3).




5
 According to the Peace Corps’ Overseas Financial Management Handbook, section 13.1 “The Peace Corps
operates in many culturally diverse countries and economies, many of which are dependent on cash (rather than
checks or EFTs [electronic fund transfers]). Therefore, imprest funds (petty cash funds) are a critical component of
post operations.”

New Country Entries: Lessons Learned                                                                                   5
                                        Figure 2. Site Preparation
                           When you arrived at your community, how
                            prepared for your arrival were the host
                            country people with whom you would be
                                           working?
                                  (% "Adequately" or better)
                               71.4%
                                                                 63.6%




                            All Volunteers            Volunteers at New Posts
                   Source: OIG analysis of AVS Data



                        Figure 3. Satisfaction with Staff Support
               How satisfied are you with the support provided by in-country staff for the
                                              following...?
                                      (% "Adequately" or better)
                          88.8%
      86.8%
                                                                     84.4%
              81.6%
                                    77.0%                                             77.8%
                                                                             74.0%
                                                 69.9%                                        71.4%

                                                         61.7%




      Administrative      Cross-cultural      Feedback on reports Language learning   Technical skills
                                    All Volunteers    Volunteers at New Posts

 Source: OIG analysis of AVS Data

This data suggests that staff is typically stretched thin by start-up activities. Our review
confirmed that insufficient preparation time was especially problematic for new posts.

 Lesson Learned:

 Staff need sufficient time to complete the crucial start-up steps required for post to be
 prepared to receive its first group of trainees.


New Country Entries: Lessons Learned                                                                     6
Getting staff with relevant experience and expertise is critical for opening a new post.

The NCE Guide encourages hiring staff with previous Peace Corps field experience and explains
that “opening” a post is different than “running” a post. Opening a post requires leaders familiar
with the Peace Corps, who can both train new host country staff and set up strong systems. Our
review of newly opened posts also indicates that previous regional experience, in addition to
previous Peace Corps experience, has been an important asset for staff opening a new post.

We found several positive trends related to staff at posts that OIG reports determined were
opened successfully. The reports described staff at these posts as highly capable, experienced,
and high-performing. Staff had previous field experience with the Peace Corps, regional
expertise, and strong Peace Corps institutional knowledge. As a result, the new posts had in place
key systems, processes, and infrastructure, and Volunteer projects were effectively established.
Experienced staff guided successful new country entries due to their awareness of and ability to
implement agency best practices.


Experienced headquarters and regional staff provided critical assistance to new posts.

The NCE Guide refers to the important roles of staff members from nearby posts, regional
stations, or headquarters. These staff, including U.S.-based personal service contractors, can
provide crucial support to project development, implementation, monitoring and evaluation,
training design and implementation, and the design and development of the safety and security
program. According to the guide, the Office of Health Services should deploy a temporary duty
(TDY) Peace Corps Medical Officer to assist with start-up medical equipment and supply needs.
A regional Information Technology (IT) specialist should travel to the post to help staff
configure a temporary computer network, interview IT specialist candidates and vendors, and
assess what types of services are available in country.

Our review of OIG reports underscores the important role that experienced staff at headquarters
or other posts have played in supporting the opening of a new post. Experienced staff helped new
posts achieve positive host country relations, solid administrative systems, effective training, and
programming that met host country development needs. Training and support from experienced
staff during the posts’ beginning stages prepared new staff for both the routine and more
complex tasks that lay ahead. For example, prior to the opening of PC/Bangladesh (1998) senior
headquarters staff conducted several visits in advance of the opening to establish a memorandum
of understanding and plan programming with host country representatives. Staff in PC/Colombia
(2010) successfully conducted their first PST with the assistance of experienced staff from
headquarters on TDY assignment.

Some new posts received particularly effective assistance from experienced staff of nearby posts:
implementing administrative systems, planning programming, navigating political challenges,
and training start-up staff either on site or at their own post. New posts received strong support
from regional safety and security and medical staff, such as Peace Corps safety and security
officers and regional medical officers.



New Country Entries: Lessons Learned                                                               7
    Lesson Learned:

    New posts benefit from the temporary and targeted support of experienced headquarters and
    regional staff to successfully carry out start-up activities.



Insufficient staffing strained programs and operations at new posts and impacted Volunteer
early termination rates.

The introduction to the NCE Guide encapsulates a lesson learned from previous new country
entries: “Invest fully in the staff and resources required to get the program off to a successful
start. Building a strong base is essential for development of a quality program.”

The problem of not having sufficient staff resources in place was a common theme among new
posts that struggled. Senior staff positions at many new posts were not filled in a timely fashion
and remained vacant for long periods. Other new posts became unsettled by turnover of
experienced senior staff or extended absences in key positions. 6 Understaffed posts relied on
staff or contractors to fill gaps and vacancies. In addition to staffing inadequacies, the staff hired
at new posts often lacked the experience, skills, and training required to effectively conduct start-
up operations.

The lack of appropriate staff resources had a significant impact on newly opened posts. The
reports we reviewed included the following effects:

      •   Multiple programming and training weaknesses, including a lack of project plans,
          unfocused Volunteer projects, insufficient programming and training development and
          evaluation processes, and inadequate training programs.
      •   Volunteer dissatisfaction with training, programming, and support.
      •   Overworked, overwhelmed, and sometimes demoralized staff.
      •   Lack of mentoring and guidance for newly-hired staff.
      •   Deterioration of internal controls due to management instability.
      •   Financial management and budgeting weaknesses, including violations of federal
          regulations and agency guidelines.
      •   Weak Volunteer support systems resulting in poor programming, health care (services
          and supplies), site placement, and logistics.
      •   High rates of Volunteer early termination.


6
  In our FY 14 Peace Corps Overseas Staffing Audit (IG-14-01-A) we reported on the impact of inadequate planning
for direct hire staff vacancies, the need to develop an overarching timeline for the hiring process and to maintain a
master calendar to manage when post senior staff positions will become available. In our FY 12 Impacts of the Five-
year Rule on Operations of the Peace Corps Evaluation (IG-12-05-E) we reported that legislatively mandated
limited-term staff appointments contributed to an abbreviated average tenure of USDH employees throughout the
agency and particularly in overseas staff positions.



New Country Entries: Lessons Learned                                                                                8
As an example, PC/Romania (1991), which experienced a high level of U.S. staff turnover
during its first two years and relied on temporary staff and contractors, had a particularly high
early termination rate. Only four of 18 original Volunteers remained to close their service, an
attrition rate of 75 percent. More broadly, we analyzed early termination rates at new posts, using
the agency’s data from 2003 to 2013, and found that resignation rates at new posts started out
lower than the global average in the post’s first year of operation, then rose above the global
average for several years thereafter (see Figure 4). 7

                                         Figure 4. Resignation Rates


                                      9.94%            9.92%            9.78%            10.21%



                     5.68%




                        1                2              3              4                    5
                                               Age of Post (Years)
                                             New Posts         Global Average

             Source: Early Termination Rate Reports

Lower than average resignation rates in a post’s first year likely results from the agency’s
strategy to place resilient applicants in the initial input of trainees. 8 According to the Office of
Volunteer Recruitment and Selection’s Guide to Placement:

         With an NCE comes the opportunity (as well as burden) of getting new projects off the ground . . . These
         trainees are breaking new ground; developing, testing, and solidifying projects; and creating first
         impressions for an organization and country. Looking for applicants who can handle the inevitable
         ambiguities of a NCE is critical.

However, this emphasis only applies to the first group of trainees and subsequent groups are no
better prepared to confront the additional challenges of serving at a new post.




7
  Early termination refers to ending service early, which can occur by resignation, medical separation, interrupted
service, and administrative separation. Resignation refers to the voluntary exit of service by the Volunteer.
8
  It should also be noted that a post’s opening year might not represent a full calendar year of operations and there
would be no early terminations from Volunteers in their second year of service.

New Country Entries: Lessons Learned                                                                                    9
 Lesson Learned:

 The agency’s NCE Guide provides sufficient guidance to avoid significant staffing
 problems.

 To mitigate the harmful effects of frequent staff turnover and leadership gaps, proactive
 succession planning is especially critical during posts’ formative years.



Piggy-backing on the staff resources of existing posts and relying on contractors or the U.S.
Embassy were ineffective.

Several of the posts in our review were not provided USDH in-country staff when they were
opened or re-opened. Most of these newly opened posts were administered by staff provided
from nearby posts, a strategy the agency used to refer to as “piggy-backing,” which was seen as a
cost-saving strategy. For example:

   •   PC/Cape Verde (1988) was administered from Guinea Bissau.
   •   PC/Sao Tome e Principe (1990) was administered from Gabon.
   •   PC/Estonia and Lithuania (1992) were administered from Latvia.

Early operations at some new posts were conducted by designated representatives, such as
embassy staff and contractors, rather than official Peace Corps staff. PC/Panama (1990), when
re-opened, was initially represented by the U.S. Embassy, supported by a contractor, and
administered by PC/Costa Rica. The lack of USDH staff on the ground affected the agency’s
ability to officially represent the Peace Corps and directly engage and communicate with the host
government regarding program plans. Another post in our review, PC/Equatorial Guinea (1988),
was opened by a contractor in violation of federal regulations and agency guidelines, which
called into question the post’s procurements, leases, contracts, etc. When re-opened, PC/Liberia
(2008) was supported by a PC/Sierra Leone DPT based in Freetown.

Our review revealed that the piggy-backing strategy and use of designated staff or contractors
was problematic for a number of reasons, including the following:

   •   Staff was not given sufficient time to prepare for the responsibilities related to opening
       and administering a new post.
   •   The piggy-backing posts did not always share the same language and currency, which
       complicated administrative procedures.
   •   Staff encountered travel and communication difficulties due to poor infrastructure.
   •   The posts that shared staff were burdened by frequent and prolonged staff absences and
       heavy workloads.
   •   Staff was stretched thin, demoralized, and in disarray.
   •   Posts without in-country USDH staff at their inception had difficulty establishing
       effective agency representation and partner relations.
   •   When full-time dedicated staff arrived in-country, they were overwhelmed with work.

New Country Entries: Lessons Learned                                                                10
    Lesson Learned:

    In opening new posts, the agency should avoid unconventional staffing strategies such as
    “piggy-backing” or using designated representatives or contractors.



Insufficient funds and material resources strained programs and operations at new posts.

According to the NCE Guide, prior to arriving at a new post the CD should project the post’s 12-
month budget to cover start-up expenses. Once in country, senior staff is responsible for
acquiring the post’s necessary material resources and regularly reviewing the budget and
contacting headquarters if an increase is deemed necessary. The guide states that some budget
adjustments may be necessary due to “the lack of firm precedence on which to base cost
calculations.” Agency guidance can help staff determine which start-up operations are likely to
require additional support should external pressure or other influences shorten post opening
timeframes.

Two posts in our review, PC/Panama (1990) and PC/Liberia (2008) were launched without
adequate provision of funds or material resources. The regional budget was insufficient to fully
fund the opening of PC/Panama, but the agency launched the program under external pressure
from the Department of State. The post’s budget was then supported by U.S. Agency for
International Development funds that had been earmarked for the host country agency with
which Peace Corps would be collaborating. This arrangement resulted in a disagreement between
the Peace Corps and the Panamanian partner over control of funds and temporarily strained
relationships. Peace Corps’ independence was put at risk by the reliance on outside funding.

PC/Liberia (2008) was launched by the Office of Peace Corps Response (PCR) rather than the
Africa Operations office that supports the region. 9 Because the country program only consisted
of PCR Volunteers when opened, with plans to transition later to a traditional post model, the
post was provided just a few drivers and vehicles, small office space, and a reduced number of
staff members. The post also was not afforded the benefit of support from experienced Africa
Operations staff who routinely manage and support program, training, and administrative
operations in the region. The lack of support, resources, and personnel placed a heavy burden on
in-country staff and contributed to Volunteer dissatisfaction and unusually high early termination
rates for the post’s first two years of operations. In response to OIG’s evaluation report on
PC/Liberia, the agency reported that PCR will no longer be fully responsible for leading a new
country entry or re-entry.




9
 The Peace Corps Response program offers short-term, high-impact assignments to qualified professionals in
various programs around the world.

New Country Entries: Lessons Learned                                                                         11
 Lesson Learned:

 The agency should ensure that new posts have in place sufficient financial and material
 resources to support start-up operations and safeguard the agency’s independence and
 interests.



HOST COUNTRY AND U.S. EMBASSY SUPPORT AND COOPERATION

Successful start-up posts established cooperation and secured support from the host
government.

The NCE Guide advises staff to conduct a series of meetings with host country government
officials to confirm commitments, negotiate and finalize programming decisions, and secure the
support of host country governments, authorities, and local communities. The guide explains
that, “success in these efforts lays a foundation essential to an effective post.” In addition, the
NCE guide advises staff on the importance of ensuring that Volunteer programming is focused
and appropriately designed to meet host country development priorities, as defined by the host
country government and key stakeholders.

Posts that OIG determined were opened successfully had worked hard to establish buy-in from
ministries at multiple levels, which included field visits by staff to educate and inform host
government officials at regional and district levels. As a result, the Peace Corps enjoyed strong
and collaborative relationships at multiple levels with host governments, from the heads of state,
ministry officials and local district officials. The strength of these relationships was evidenced by
senior government officials’ participation in Peace Corps ceremonies and the engagement of
regional officials in site identification and Volunteer training activities. In one example from
posts we have evaluated, the deputy prime minister of Cambodia (2006) attended the swearing-in
ceremony of the program’s fourth group of Volunteers and delivered an opening address that
highlighted Peace Corps’ contributions to the development of the country. Early, concentrated
efforts building strong relationships with government partners at all levels had an extended
positive effect in the communities where Volunteer served and among host families unfamiliar
with the Peace Corps mission or the American culture.

Relatedly, our review underscored that poor coordination with host country partners led to
significant programming issues at new posts. For example, staff at PC/Czechoslovakia (1991)
failed to conduct a host country needs assessment and allowed host country partners to determine
Volunteer roles without adequate participation of staff. This resulted in Volunteer assignments
that were not viable and did not align with Volunteers’ skill and experience levels. Volunteers
were not successful in their work efforts and experienced job dissatisfaction. Staff at
PC/Kyrgyzstan (1993) did not sufficiently engage host country partners to determine a viable
strategy to carry out an education project, which resulted in ineffective classes and frustrated
Volunteers and students.



New Country Entries: Lessons Learned                                                              12
Our review identified several causes of inadequate host government support. Staff at some re-
opened posts, such as PC/Chad (1987), found that host government representatives had
unresolved negative feelings related to the previous closure of the post. At another post,
PC/Bolivia (1990), the agency’s image was tarnished by perceived association with other U.S.
government foreign policy activities, and the host government was concerned about controversial
publicity. The 1990 re-opening of PC/Panama followed the invasion of the country and the
economic embargo in 1989, and the agency had not fully anticipated and planned around these
politically sensitive issues. Some host governments simply lacked the resources to fulfill their
obligations, which OIG found to be the case in Uganda (1991).

In addition, several newly opened posts experienced difficulties because host country officials
developed unrealistic expectations and made incorrect assumptions regarding the agency’s
mission. Officials in Jordan (1997) did not understand why the agency wanted to place
Volunteers in resource-poor rural areas and pushed to place Volunteers in well-resourced urban
areas. Officials in Guinea Bissau (1988) had an expectation that Volunteers were highly skilled
technicians with their own vehicles, equipment, and project financing. Staff at these posts had to
divert time and resources to manage expectations and secure the necessary host country support.
Officials in Guinea Bissau were also not prepared or equipped to absorb the Volunteers they had
requested and a second input of Volunteers was canceled. Volunteers were directly impacted and
experienced misunderstandings with their counterparts and were unable to do an effective job.
After eight months, almost half the first group of Volunteers had terminated their service early.

Host country officials in newly opened posts may anticipate that the Peace Corps functions like
other development or U.S. governmental organizations. For all posts, both new entries and re-
entries, the NCE Guide emphasizes relationship building and communicating with partners. The
road map provided in the NCE guide includes sufficient opportunities to foster appropriate
understandings of the agency’s mission and expectations regarding Volunteer placements and
activities.

 Lesson Learned:

 Staff at new posts should conduct a major effort with host country partners and local project
 stakeholders to communicate the agency’s mission and goals, foster cooperation and set
 appropriate expectations concerning how to use Volunteer resources effectively.



U.S. Embassy support is critical to the start-up process.

U.S. embassies routinely provide logistical and diplomatic support to new posts. Several of the
posts in our review sought additional support from the U.S. embassy during start-up operations.
For example, PC/Bolivia had not been staffed with a cashier (agency guidance indicates a cashier
should be hired five to six months prior to the first PST) and the embassy provided the use of a
cashier, which allowed the post to carry out reimbursements and other financial administrative
activities.


New Country Entries: Lessons Learned                                                             13
Our review found that embassy support was not typically an area of difficulty for new posts, but
we did determine that a few posts experienced challenges related to embassy support. For
example, the U.S embassy in Chad (1987) failed to provide promised administrative and
logistical support services, including the use of vehicles and assistance in procuring and paying
for supplies and in its start-up phase the post struggled to develop host country relations and
select sites. The embassy also destroyed Peace Corps files when the program previously closed,
which impacted staff hiring.

The NCE Guide provides descriptive information about the resources and assistance often
available to new posts through the U.S. Embassy, such as customs support, cash advances, and
car pool services. The guidance directs staff to negotiate short-term support and determine the
extent to which the embassy can support the post in setting up and operating its financial
systems.

PROGRAMMING AND TRAINING

Programming and training success was achieved by limiting the scope of programming
operations.

The NCE Guide indicates that most successful start-ups have focused on a single project rather
than on several at once. Our review found that programming and training challenges were
compounded when new posts launched multiple projects. The OIG inspection of PC/Cape Verde
(1988) revealed that there were five active project sectors for 22 Volunteers and only one staff
member to provide management and support. The staff was overwhelmed and the projects lacked
structure and support. The Volunteers were poorly utilized and the post was forced to close
projects. PC/Guinea Bissau (1988) also launched multiple projects when the program opened but
staff had not developed effective project plans and assignments were not clearly defined. This
impacted technical training which tried to cover too many areas without any particular focus and
was too densely packed for trainees to absorb. 10 The training was inadequate and Volunteers
were not prepared for their jobs.

We assessed Volunteer training adequacy at new posts by reviewing agency Volunteer survey
data. We reviewed survey data from 2002 to 2013 and compared responses from new posts to
global responses (see Figure 5). Our analysis revealed that Volunteers at new posts felt less
prepared for key elements of their project activities.




10
     As an added challenge, PST was conducted jointly with two other posts.

New Country Entries: Lessons Learned                                                              14
                                            Figure 5. PST
                   How well did PST prepare you to do the following as part of your
                                    project/primary assignment:
                                     (% "Adequately" or better)


                                                        81.75%
                                 76.88%                                        78.48%
             76.49%
                                           70.89%                70.43%
                      68.29%                                                            68.54%




                Work with        Perform technical    Conduct a community Monitor project goals
               counterparts       aspects of work         assessment        and outcomes
                                All Volunteers       Volunteers at New Posts

        Source: OIG analysis of AVS Data

This survey data likely reflects the inherent challenges in opening a post and underscores the
benefit in minimizing the complexity of program management, Volunteer training, and technical
support.

 Lesson Learned:

 New posts should limit the scope of programming during the initial years of operation.




New Country Entries: Lessons Learned                                                              15
                           LIST OF LESSONS LEARNED
The following is a summary of identified best practices and lessons learned from our review.

NEW COUNTRY ENTRY ASSESSMENTS
  • While there are no agency requirements or procedures to ensure that a start-up post
     implements assessment team recommendations, our review suggests that closer
     adherence to assessment team recommendations would benefit the agency.
  • Assessment team members should possess appropriate skills and experiences and be
     provided sufficient time and resources to carry out a thorough and accurate assessment
     and develop a useful set of recommendations to guide staff entrusted with opening the
     post.

PLANNING, STAFFING, AND RESOURCES
   • Staff should be provided sufficient time to complete the crucial start-up steps required for
      post to be prepared to receive its first group of trainees.
   • New posts benefit from the temporary support of experienced headquarters and regional
      staff to successfully carry out start-up activities.
   • The agency’s NCE Guide provides sufficient guidance to avoid significant staffing
      problems.
   • To mitigate the harmful effects of frequent staff turnover and leadership gaps, proactive
      succession planning is especially critical during posts’ formative years.
   • In opening new posts, the agency should avoid unconventional staffing strategies such as
      “piggy-backing” or using designated representatives or contractors.
   • The agency should ensure that new posts have in place sufficient financial and material
      resources to support start-up operations and safeguard the agency’s independence and
      interests.

HOST COUNTRY AND U.S. EMBASSY SUPPORT AND COOPERATION
  • Staff at new posts should conduct a major effort with official host country partners and
      local project stakeholders to communicate the agency’s mission and three goals and to
      foster cooperation and set appropriate expectations concerning how to use Volunteer
      resources effectively.

EMBASSY SUPPORT
  • Negotiate short-term support with the embassy early on and determine the extent to
     which the embassy can support longer term operations.

PROGRAMMING AND TRAINING
   • New posts should limit the scope of programming during the initial years of operation.




New Country Entries: Lessons Learned                                                           16
           APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY
In 1989, the Peace Corps OIG was established under the Inspector General Act of 1978 and is an
independent entity within the Peace Corps. The purpose of OIG is to prevent and detect fraud,
waste, abuse, and mismanagement, and to promote economy, effectiveness, and efficiency in
government. The Inspector General is under the general supervision of the Peace Corps Director
and reports both to the Director and Congress.

The Evaluation Unit provides senior management with independent evaluations of all
management and operations of the Peace Corps, including overseas posts and domestic offices.
OIG evaluators identify best practices and recommend program improvements to comply with
Peace Corps policies.

The Evaluation Unit began work on the review of new country entries and re-entries in
September 2013. The following researchable questions were used to guide the review:

       •   What strategies and best practices have proven effective in opening new posts?
       •   What common challenges are encountered in opening new posts?
       •   Has the agency adequately addressed the challenges of opening posts?

To answer these questions, we compiled a list of posts opened since the earliest OIG reports
were issued and searched the OIG archives for evaluations, inspections, and special reviews
conducted at those posts within five years of the Posts’ opening or re-opening. In total, we
retrieved 33 OIG reports dating from 1990 to 2013 (see Appendix C for the full list of reports).
We analyzed each of these reports and identified findings and observations related to start-up
activities and operations.

As additional support for our analysis, we reviewed Annual Volunteer Survey data from 2002 to
2013, during which time eighteen posts were opened or re-opened. 11 We compared responses
from new posts, which we defined as posts opened for five years or less, to global responses, and
analyzed Volunteer satisfaction related to community preparedness, staff support, and the
effectiveness of PST.

The survey data that we reviewed included the percentage of Volunteers that responded to each
question but not the number of responses. To ensure Volunteer responses were weighted equally,
we took each question in a post’s survey and calculated the number of satisfactory responses and
then determined a percentage that could be compared to global response percentages. We then
compared satisfaction rates at newly opened posts to global averages for those same questions.

We also reviewed agency early termination and resignation data from 2003 to 2013. We
aggregated resignation rates at new posts for each of their first five years of operation to
determine average resignation rates by age of post. We compared these rates to a global average


11
     The agency first instituted a biennial survey in 2002 and transitioned to an annual survey in 2009.

New Country Entries: Lessons Learned                                                                       17
rate that we determined by averaging all annual resignation rates from 2003 to 2013. These
analyses provided information to corroborate and supplement the results of our review.

Our review was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.




New Country Entries: Lessons Learned                                                         18
                      APPENDIX B: LIST OF ACRONYMS

 AVS                      Annual Volunteer Survey
 CD                       Country Director
 DPT                      Director of Programming and Training
 IT                       Information Technology
 NCE                      New Country Entry
 OIG                      Office of Inspector General
 PCR                      Peace Corps Response
 PST                      Pre-Service Training
 TDY                      Temporary Duty
 USDH                     United States Direct Hire




New Country Entries: Lessons Learned                             19
                    APPENDIX C: OIG REPORTS REVIEWED
                                         OIG Reports Reviewed12
       Post              Report                Report Type                         Report         Entry Year
                                                                                   Year13
Comoros               IG 90-010 14     Special Review - Security Of              1990           1988
                                       Volunteers Following Assassination
                                       of President
Chad                  IG 90-014        Special Review - Volunteer                1990           1987 (re-entry)
                                       Support/morale & Security Issues
Equatorial Guinea     IGI-91-17        Special Review - New Country              1991           1988
                                       Entry
Guinea Bissau         IGI-92-04        Inspection                                1991           1988
Panama                IGI-91-07        Evaluation                                1991           1990 (re-entry)
Bolivia               IGI-91-13        Special Review - Peace Corps Re-          1991           1990 (re-entry)
                                       Entry
Poland                IGI-91-18        New Country Entry Review                  1991           1990
Hungary               IGI-91-19        New Country Entry Review                  1991           1990
Czechoslovakia        IGI-93-03        Inspection                                1992           1991
Sao Tome e            IGI-92-03        Inspection                                1992           1990
Principe
Cape Verde            IGI-92-05        Inspection Report                         1993           1988
Uganda                IGI-93-09        Evaluation                                1993           1991 (re-entry)
Romania               IGI-93-06        Evaluation                                1993           1991
Baltics               IG 94-14         Evaluation                                1994           1992
Kyrgyz Republic       IG 96-06         Evaluation                                1995           1993
Namibia               IG 95-19         Evaluation                                1995           1990
Madagascar            IG-96-08         Evaluation                                1996           1993
Moldova               IG-96-07         Evaluation                                1996           1993
Zambia                IG-96-19-1       Evaluation                                1997           1993
Suriname              IG-99-12-1       Evaluation                                1999           1995
South Africa          IG-99-10-1       Evaluation                                2000           1997
Bangladesh            IG-00-09-ES      Evaluation                                2000           1998
Haiti                 IG 00-17-AE      Joint Evaluation/Audit                    2000           1996 (re-entry)
Jordan                IG-01-11-EA      Joint Evaluation/Audit                    2002           1997
Chad                  IG 05-24-EA      Joint Evaluation/Audit                    2005           2003 (re-entry)
Botswana              IG 06-18-E       Evaluation                                2006           2003 (re-entry)
Azerbaijan            IG-07-11-E       Evaluation                                2007           2003
Albania               IG-08-12-E       Evaluation                                2008           2003 (re-entry)
Ethiopia              IG-11-02-E       Evaluation                                2011           2010 (re-entry)
Liberia               IG-11-07-E       Evaluation                                2011           2008 (re-entry)

12
   The OIG conducts audits, country program evaluations and special reviews of agency operations. Three of the
reports listed here were conducted as joint audit/country program evaluations.
13
   The Report Year column reflects the year field work was conducted; in some cases the report was issued the
following year.
14
   The report tracking numbering protocol has been altered during the past 25 years.

New Country Entries: Lessons Learned                                                                             20
Cambodia          IG-11-04-E     Evaluation   2011   2006
Indonesia         IG-12-07-E     Evaluation   2012   2010 (re-entry)
Colombia          IG-13-03-E     Evaluation   2013   2010 (re-entry)




New Country Entries: Lessons Learned                              21
              APPENDIX D: ALL VOLUNTEER SURVEY ANALYSIS
Due to AVS revisions, the survey questions we reviewed for our report appeared at different
times. The following table shows when each question was included in the survey.

                                     Question15                                  Years Included in AVS
            When you arrived at your community, how prepared for                 2004–13
            your arrival were the host country people with whom you
            would be working?
            How satisfied are you with the administrative support                2006–13
            provided by in-country staff?
            How satisfied are you with the cross-cultural support                2008–11
            provided by in-country staff?
            How satisfied are you with the feedback on work reports              2006–13
            provided by in-country staff?
            How satisfied are you with the language support provided             2006–11
            by in-country staff?
            How satisfied are you with the technical skills support              2006–13
            provided by in-country staff?
            How well did PST prepare you to work with counterparts               2006–13
            as part of your project/primary assignment?
            How well did PST prepare you to perform technical                    2006–13
            aspects of work as part of your project/primary
            assignment?
            How well did PST prepare you to conduct a community                  2006–13
            assessment as part of your project/primary assignment?
            How well did PST prepare you to monitor project goals                2006–13
            and outcomes as part of your project/primary assignment?




15
     The formatting and phrasing of survey questions varied from year to year.

New Country Entries: Lessons Learned                                                                     22
     APPENDIX E: REPORT COMPLETION AND OIG CONTACT
REPORT COMPLETION              This report was developed, under the direction of
                               Assistant Inspector General for Evaluations Jim O’Keefe,
                               by Senior Evaluator Reuben Marshall and Evaluator
                               Apprentice Ben Simasek. Additional contributions were
                               made by Senior Evaluator Jerry Black, Program Analyst
                               Kaitlyn Large, Writer/Editor Lisa Chesnel and
                               Administrative Specialist Sydni Porter.




                               Jim O’Keefe
                               Assistant Inspector General for Evaluations

OIG CONTACT                    If you wish to comment on the quality or usefulness of
                               this report to help us improve our products, please contact
                               Assistant Inspector General for Evaluations Jim O’Keefe
                               at jokeefe@peacecorps.gov, or 202.692.2904.




New Country Entries: Lessons Learned                                                         23
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                          Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                 OIG@peacecorps.gov
          Online Reporting Tool: PeaceCorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
